<k

No.

gl -568?
FILED
JUL 2 9 2021
OFFICE OF THE CLERK
SUPREME COURT. US.

IN THE SUPREME COURT OF THE UNITED STATES

DARREL HOCHHALTER - PETITIONER

Vs.

TONY PARKER AND KEVIN MYERS - RESPONDENT

6th CIRCUIT COURT OF APPEALS

FOR THE UNITED STATES

CASE NUMBER 20-6340

ON PETITION FOR WRIT OF CERTIORARI

1

«
»

i

> V
!.

4.

r

*'

’

V

*■

v-

;

<LJt

*\

■'JTV
i

p “T
V

?

/r

A.

C! i.JM
C

♦ ^ ^ JO*,
j

.;

<
i

<

>

I
>'

J

)

\

:
i

\

/
i

\

*

PETITION FOR WRIT OF CERTIORARI

PRO*SE PETITIONER:

DARREL HOCHHALTER
533622
T.C.I.X.
1499 R.W. Moore Memorial Highway
P. O. Box 4050
Only, Tennessee 37140*4050

No Phone

2

4

*,

l

/

\

b

i

!

\

/

S

QUESTIONS PRESENTED FOR REVIEW

1.) As some jurisdictions have rules regarding recent fabrication and others
do not; does “recent fabrication” rise to the same significance as “false
evidence” in influencing the fairness of a trial per the 14th Amendment as
stated in 405 US 150, and 360 US 264 and does its presence warrant a
finding of plain error?

2.) In a question of impeachment and due process, per the 14th Amendment; if
a witness makes a sworn testimony at trial that is inconsistent with a
previous out*of-court statement, and admits freely that they made the out-ofcourt statement and that it was a fabrication, does that then make the out-ofcourt statement consistent with the current sworn testimony and is that
witness still subject to impeachment proceedings?

3.) Do the 6th amendment confrontation clause and 14th amendment due
process clause apply to extrinsic interviews, of a sequestered complainant
used as substantive evidence at trial where the complainant has been unduly
influenced by agents of the state and defense counsel is not permitted to be
present and prevent improper (leading, suggestive, repeated) questioning?

/
I

1

*

t

■

J
f

I

i

i

PARTIES

All parties appear in the caption of the case on the cover page.
RULE 29.6 STATEMENT
Petitioner Darrel Hochhalter is an individual serving a sentence in a
Tennessee State correctional institution. No corporation is involved in this
cause.

4

c

t

A

\
V

*

V

i

v

1

\

\

\
{

!
K

\

7

1

e

:

!

TABLE OF CONTENTS

Table of authorities

7

Opinions below

8

Jurisdiction

9

Constitutional and statutory provisions involved

10

Statement of the case

14

Reasons for granting the writ

24

I.) The exposure of the jury to false, fabricated statements and
evidence violated the defendant’s right to due process guaranteed by
the 6th and 14th Amendment.
A United States court of appeals has so far departed from the
accepted and usual course of judicial proceedings, or sanctioned such a
departure by a lower court, as to call for an exercise of this courts
supervisory power?
A state court or a United States court of appeals has decided an
important federal question in a way that conflicts with relevant
decisions of this court.

Conclusion

35

Appendices

38

Appendix 1- KH trial testimony

5

t

I

s

w

%

i

i

I
h

4

t

\

Appendix 2• Control phone call transcript
Appendix 3: Petitioners post conviction hearing testimony
Appendix 4' Tennessee appellate opinion
Appendix 5- Post conviction opinion
Appendix 6- Habeas corpus application
Appendix 7- Habeas Corpus amendment
Appendix 8: DCS report dated 06/25/10
Appendix 9^ KH affidavit
Appendix 10- Surgeons notes from KH surgery
Appendix IV Petitioners Habeas Corpus reply
Appendix 12- Habeas corpus opinion
Appendix 13- request for certificate of appealability
Appendix 14- 6th Circuit request for appealability opinion

6

i.

\
i

(

i

\

\

TABLE OF AUTHORITIES

Federal cases involved
Daubert V. Merrill Dow Pharmaceuticals 509 U.S. 579

29

United States V. ROUSE

111 F3d 561

29

Chambers V, Mississippi

410 US 284

26, 32

Giglio V. United States

405 U.S. 150

32

Napue V. People of State of Ill.

360 U.S. 264

32

Idaho V. Wright

497 U.S. 805

28, 32

Opper V. United States

378 U.S. 84

34

Murray V. Carrier

477 U.S. 495

25

Helton V. State

547 SW2d 564, 567 (TSC)

34

State V. Martin

964 S.W.2d 564, 567 (TSC 1998)10, 27, 32

State V. Brown

29 S.W. 3d, 427 (Tenn. 2000)

26, 30

State V. Ackerman

397 S.W. 3d 617 (Tenn. 2014)

10, 27, 32

State cases referenced

7

!

u

1

\

I

V

>

\
\

\

1

v'

\

1

►

/

f

i

/

t

!

IN THE
SUPREME COURT OF THE UNITED STATES

DARREL HOCHHALTER - PETITIONER

Vs.

TONY PARKER AND KEVIN MYERS - RESPONDENT

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.
Opinions below
The opinion of the state court of appeals to review the merits appears at
Appendix 4
The opinion of the post conviction court to review the merits appears at.
Appendix 5 to the petition.
The opinion of the highest state court to review the merits appears at
Appendix 6 to the petition.
The opinion of the Middle District Court to review the merits in Habeas
Corpus appears at Appendix 13 to the petition.
A timely application for permission to appeal was thereafter denied on the

8

I

»

V

\

r

i

4

}

y

‘

4

>

/'

(

i

t

*
?

*
!

■r\

14th day of June, 2021, and a copy of the unpublished order denying COA on
June 14th, 2021 appears at Appendix 15

JURISDICTION

The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(l) and the
United States Supreme Court rules 10 and 13.

9

'

/

s.

1

S

/

\

t

«

\
;
i

CONSTITUTIONAL PROVISIONS INVOLVED
Constitutional Amendments
U.S. Constitution, 6th amendment
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the state and district wherein the crime
shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witness against him; to have
compulsory process for obtaining witnesses in his favor, and to.have the
assistance of counsel for his defense.

U.S. Constitution, 14th Amendment Section 1
All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein
they reside. No state shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any state
deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.
Federal statutes
FROE 103(e)- A court may take notice of a plain error affecting a substantial
right, even if the claim of error was not properly preserved.

10

,
X

f

/
r
1

1

*

r

\

t

\
z

i

t

't

•:

:
''I

U.S. Sup. Ct. Rule 10, 28 U.S.C.A- Review on a writ of certiorari is not a
matter of right, but of jurisdictional discretion. A petition for a writ of
certiorari will be granted only for compelling reasons. The following, although
neither controlling nor fully measuring the Courts discretion, indicate the
character of the reasons the Court considers:
(a) a United States court of appeals has entered a decision in conflict with the
decision of another United States court of appeals on the same important
matter; has decided as important federal question in a way that conflicts with
a decision by a state court of last resort; or has so far departed from the
accepted and usual course of judicial proceedings, or sanctioned such a
departure by a lower court, as to call for an exercise of this courts supervisory
power;
(b) A state court of last resort has decided an important federal question in a
way that conflicts with the decision of another state court of last resort or of a
United States court of appeals;
(c) A state court or a United States court of appeals has decided an important
federal question in a way that conflicts with relevant decisions of this court.
State statutes
Tenn. Code Ann. 39*13'527 (a)Sexual battery by an authority figure is unlawful sexual contact with a
victim by the defendant or the defendant by a victim accompanied by the

11

i

i

y

t

t

t

'i

i

\

/
f

!

/

/

following circumstances'
(l) the victim was, at the time of offense, thirteen (13) years of age or older
but less than eighteen (18) years of age; and (3)(B) the defendant had, at the
time of offense, parental or custodial authority over the victim and used the
authority to accomplish the sexual contact.
Tenn. Code Ann. 39-13-503 (a):
Rape is the unlawful sexual penetration of a victim accompanied by any of
the following circumstances' (l) Force or coercion is used to accomplish the
act.
Tenn. Code Ann. 39-13-501 (l), (6), & (7):
(l) ’’Coercion” means threat of kidnapping, extortion, force or violence to be
performed immediately or in the future or the use of parental, custodial, or
official authority over a child less than fifteen (15) years of age.
(6) “Sexual contact” includes the intentional touching of the victim’s, the
defendant’s, or any other person’s intimate parts, or the intentional touching
of the clothing covering the immediate area of the victim’s, the defendant’s, or
any other person’s intimate parts if that intentional touching can be
reasonably construed as being for the purpose of sexual arousal or
gratification.
(7) “Sexual penetration” means sexual intercourse, cunnilingus, fellatio, anal
intercourse, or any other intrusion, however slight, of any part of a person’s
body or of any object into the genital or anal openings of the victim’s, the
12

s

f\

c
I

6

5

?

r
defendant’s, or any other person’s body, but emission of semen is not
required.

Tennessee Rule of evidence 803(26)
1.

The statement must be otherwise admissible under Rule 613(b).

2.

The declarant must testify at the trial or hearing and be subject

to cross*examination about the statement.
3.

The statement must be an audio or video recorded statement, a

written statement signed by the witness, or a statement under oath.
4.

The judge must conduct a hearing outside the presence of the

jury to determine by a preponderance of the evidence that the prior
statement was made under circumstances indicating trustworthiness.

Tennessee Rule of evidence 613(b)
“Extrinsic evidence of a prior inconsistent statement by a witness is
not admissible unless and until the witness is afforded an opportunity
to explain or deny the same and the opposite party is afforded an
opportunity to interrogate the witness thereon, or the interest of
justice otherwise require.” (Further defined see STATE V. MARTIN,
964 S.W.2d 564 at 567 (TSC 1998) and STATE V. ACKERMAN 397
S.W. 3d 617, 637-640)

13

I

\

/“

I

;

s

{

a

"k

s.

y

STATEMENT OF THE CASE
SUMATION OF RELEVENT EVENTS
The first DCS report (Appendix 8) dated as recent as the year previous
to the accusations where KH’s statements were that nothing had happened,
inconsistent with her statements in the forensic interview BUT consistent
with her trial statements (Appendix l). The DCS report was precipitated by
stories Katie had been telling her friends in an attempt to “fit in” and
compete with the stories they related to her (appendix 1 pg 841 line 15*24,
pgl88 line 25, pgl89 line 1*11). The DCS report was acknowledged by the
prosecutor and questions were asked in the trial regarding that report
(Appendix 1 pgl82 lines 13*23, pgl87 line 23 - pgl88 line 20, pg295 line 21 *
pg296 line 17).
During the trial, KH2 testified and denied that the Petitioner sexually
abused her in any way (Appendix 1 pgl76 line 11 * pgl79 line 5, pgl88 line
25 * pgl89 line 19, pg220 lines 23*25, pg230 lines 17*18, pg237 line 9, pg240
lines 2*21, pg251 line 5 * pg253 line 15, pg275 lines 24 * page276 line 3,
pg282 line 5 * pg304 line 5, pg297 line 11 * pg298 line 4, pg312 line 13 *
pg313 line 6, pg322 line 21 * pg326 line 25, pg336 line 10 * pg337 line ll) and
in her affidavit sent with the application for habeas corpus (Appendix 9).
K.H. admitted that she had lied to numerous people that her father had
molested her (Appendix 1 pgl84 line 12 * pgl85 line 8, pg253 line 7*13). K.H.

14

r

/
i

:

i

;

f

;

K

r

%
i

t

\

\

explained that she was testifying to the truth now! that her father did not
molest or rape her because “I’m now an adult and now if I lie under oath it
has consequences. I did not understand that before.” (Appendix 1 pg!80 line
1-3), and that she had felt guilty about the fabrications (appendix 1 pg232
line 24 - pg233 line 14, pg298 line 11 - pg300 line 11, pg312 line 13 • pg313
line 6, pg348 lines 3 - 9). She has reaffirmed those statements in her affidavit
(Appendix 9).
KH denied that there had been any penetration (the required element
for the charge of rape per Tenn. Code Ann. 39-13*503) on 10 occasions.
During the forensic interview the question of penetration was asked four (4)
times, two of them directly referencing the claim stated in charge 7 (trial
exhibit 2, timestamp 10-14-49, 10-38-26, 10-44-05, and 10-53-06), it was asked
again in the juvenile hearing on 7-11-11 (trial exhibit 6, timestamp 3:17;5l)
and again four (4) times in the trial (Appendix 1 pg242 line 6 &7, pg287 line
16 - pg288 line 7, pg323 line 6*13, pg336 line 25 - pg337 line 3). KH
reaffirmed this position in the affidavit that was submitted with the habeas
reply (Appendix 9).
During the controlled phone call the petitioner denied having ever
touched her there (Appendix 2 pg. 601 line 18) (in the recording, the accused can
be heard saying “wha?” under his breath and using a confused and questioning tone in
response to KH’s assertion. This is not reflected in the transcript). The Tennessee

1 Page numbers referenced thorough out this document shall refer to the bottom right corner technical
record page number

15

'

*s

)

T

V

*

f

\
>
I

s

court of appeals and the 6th circuit court of appeals took a statement out of
context from that controlled phone call and called it an admission of guilt to
justify the charge of rape (Appendix 5). However, the District court found
that the petitioner was correct and there was no admission from the
petitioner (Appendix 12). The appellate court error was then repeated by the
6th circuit court of appeals (Appendix 14).
CHRONOLOGICAL EVENTS
When KH was thirteen her father discovered that KH had been
visiting web sites and posting under pseudonyms. The web sites were “emo”,
“goth’, and “vamp” sites. Each pseudonym had a different fictitious story
attached but they all had “cutting” as one of the elements (Appendix 1 pgl70
lines 15-22, pg324 lines 4-11). Her father confronted her and discovered that
the “cutting” was real and that she had done it in order to be accepted by her
peers. Realizing the danger of K.H.’s attempt to fit in and her struggles to
handle social pressure, her father quit his day job, pulled her from public
school and home-schooled her (Appendix 1 pgl70 line 10 - pgl72 line 25).
K.H.‘s mother was emotionally unavailable to handle the situation leaving
her father to do the best he could with the situation. During her home-school experience her father discovered that KH had
a talent for art. As he has no ability in that area he encouraged her to apply
to Nashville School of the Arts (NSA art magnet school) with the caveat that

2 KH refers to Katherine Hochhalter through out this document.

16

>

J

\

;

\

i

i

/

\
i

i

ft
i

l

if she was unable to handle the social pressures she would be pulled back out
and taken to get a GED.
During her freshman year DCS received a report from the school
principal and investigated the family (Appendix 8). KH admitted to her
parents that she had indeed been making up stories to try to fit in again but
promised to make things right if she would be allowed to remain in school.
The report was investigated and dropped (Appendix 1 pg!82 line 13 ■ pgl84
line 10, pgl87 line 23 - pgl88 line 20, pg295 line 21 • pg296 line 17)
(Appendix 8)
In her sophomore year K.H. got caught performing oral sex on her
boyfriend at school and was suspended (Appendix 1 pgl94 line 23 • pgl96 line
21). Her father was outraged and a family dispute ensued. After that, she
“used the stories that I had been telling people to get out of the house because
I wanted to be with my boyfriend at the time.” (Appendix 1 pgl89 line 4-6
pg299 line 6*9, pg303 line 3 - pg304 line 5 ).
K.H. testified that after the incident with her boyfriend that led to her
suspension from school, she feared not ever seeing her boyfriend again and
“did not want to be at home at all so I started fitting the little pieces
together... I took all the stories that I had been telling all of my friends over
the years and I put it in my journals then I told Jenny [white] the same
stories that I had told my friends regarding the molestation so I could get out
of the house” (Appendix 1 pg303 line 10 * pg304 line 5. see also pgs 345-347).

17

K.H. testified that she had two sets of journals, one that was a first
draft and one that was a latter draft in which she “slipped in stuff from my
stories in my journal so it would seem more believable.” (Appendix 1 pg!90
lines 1-4, pgl91 lines 3-7, pg303 lines 22-25). She went on to describe her
method of fabrication and explained how to tell that the journals were
fabrications due to the neat and consistent handwriting that was far neater
than her handwriting when she was thirteen. K.H. never denied having
written about alleged sexual abuse by her father in her journals, in fact she
openly admitted to having written them recently, and to their untruthful
nature (Appendix 1 pgl90 lines 1-4, pgl91 lines 3*7, pg303 line 22-25, pg346
line 6 - pg347 line 5). The state had K.H. read the journal entries then sought
the journals to be admitted as “substantive evidence” (Appendix 1 pg266267).
A week after her discussion with her youth leader, K.H. talked with a
detective who told her if she made a controlled phone call to the petitioner “it
will really help with getting you out of the house” and that if “it’s a good
enough story” she would not have to return to her home with the petitioner
(Appendix 1 pg216 line 2 - pg217 line 10). During the controlled phone call
KH attempted to manipulate her father into admitting to wrongdoing. She
was very nearly successful. Her father denied that he had ever touched her
(Appendix 2 pg601 line 18) or done anything towards K.H. with any intent of
sexual gratification (Appendix2 pg594 line 3). However, she did manage to

18

manipulate him into speaking rather clumsily about three very embarrassing
events that occurred during the time she was home-schooled. The first of
which was whenever she asked to shave her legs, her father would hand her
the razor, wait for it to be returned, inspect her arms and legs for any new
cuts, and treat the old cuts until they were healed and clear of infection
(Appendix 1 pgl75 line 14 - pgl77 line 20, pg282 line 17 - pg284 line 13,
pg324 line 4 - pg325 line 11, pgllOl lines 15-24). Second, was an event where
the topic of virginity was being discussed and the occasion of her kidney
surgeries were discussed. After this discussion she went to her room to try to
see her hymen for herself but was unsuccessful so she asked her father to
look for her. (Appendix 1 pg241 line 1 - pg242 line 21, pg287 line 11 - pg288
line 7, pg323 lines 6*13, pg336 line 10 - pg337 line 3) Seeing an opportunity to
perhaps to cause her to hesitate and maintain her purity her father then
looked (being in the room for a few seconds only) and told her that her first
time would be very painful for her (Appendix 2 pgl099 line 12 - pgllOO line
14) He did not touch (no penetration as would be required for charge of rape)
and his motives were clearly not sexual in nature as nothing sexual occurred
as stated by both KH and the petitioner (Appendix 1 pg241 line 1 - pg242 line
21, pg287 line 11 - pg288 line 7, pg323 lines 6-13, pg336 line 10 - pg337 line
3, and Appendix 3 pgl099 line 12 - pgllOO line 14) (It should also be noted
that the surgeons notes from KH’s surgery describing the excision of the
hymeneal band were also submitted with the habeas corpus reply (Appendix

19

10) supporting KH’s trial testimony and showing that the petitioners motive
for his action was not sexual gratification as would be required element for
sexual assault). Third was an event in which the father had begun
experimenting with the ED medication Cialis and woke up from a nap with
an erection (Appendix 1 pg239 line 21 - pg240 ling 21, pg249 line 11 - pg250
line 5, pg292 line 2-23, pg294 line 12 - pg295 line 5, Appendix 3 pgllOO line
15 - pgllOl line l). The details surrounding this event are not clear but what
is clear is that both parties were embarrassed by the interaction.
K.H. testified that on May 5, 2010, she gave a forensic interview and
around that time also spoke with a Department of Children’s Services
employee, and repeated the false stories regarding the molestation to both
because she “wanted to stay out of the house”. (Appendix 1 pg220 lines 4*25,
also see pgl79 lines 7*23).
K.H. admitted that she told these various persons the story that the
Petitioner would get in the shower with her, and testified that he never
actually did. K.H. admitted that she also recounted to others that the
- Petitioner would grab and rub her breasts in the shower, and that he was
sexually aroused while doing so, but testified that that was untrue as well
(Appendix 1 pg!76 line 14 - pgl77 line 20, pg251 line 1 * pg253 line 13, pg 282
line 17 * pg284 line 13). K.H. admitted that she had told others before the
trial that she and the Petitioner took a bath together, during which the
Petitioner was sexually aroused and started “thrusting”, but that it was an

20

untrue statement and did not happen (Appendix 1 pgl77 line 21 - pgl78 line
10, pg238 line 13-16, pg286 line 25 - pg287 line 16) (as the petitioner is 6’2”
and 2401bs. laying in a bathtub alone is impossible, let alone with another
person). K.H. also admitted that she told others prior to trial that the
Petitioner would take “naked naps” together, during which he would be
sexually aroused, but testified that those statements were untrue (Appendix
1 pgl85 line 3 - pgl87 line 22, pg238 line 17 - pg240 line 21, pg285 line 6 pg286 line 24). K.H. testified that while she told others that the petitioner
touched her “private to feel if it was wet” during one of their naps and moved
his hand around, it was an untrue statement and never actually happened
(Appendix 1 pgl86 line 25 - pgl89 line 6, pg285 line 6 - pg286 line 24). K.H.
testified that while the Petitioner had “looked at” her private parts to
determine if her hymen was still intact, “there was nothing sexual about it”
(Appendix 1 pg322 line 25 - pg323 line 13) and that he didn’t actually touch
her (Appendix 1 pg241 linel - pg242 line 15, pg287 line 11 - pg288 line 7).
K.H. testified that any contact was “horseplay” and once she started high
school it stopped (Appendix 1 pg326 line 8 - pg327 line 12).
K.H. testified that, even though she told several people about
numerous allegations of molestation, the stories were all fabricated. K.H. did
not deny or equivocate making the prior inconsistent statements in response
to the prosecutor’s questions over two days regarding each out-of-court prior
inconsistent statement. The prosecutor was very thorough in her questioning

21

of KH concerning each out of court statement that resulted in a charge before
asking that the statements and journals be admitted into evidence (charge 1'
Appendix 1 pg!76-177, 283*284), (charge 2- Appendix 1 pgl76*177, 283*284),
(charge 3- Appendix 1 pgl77, 287), (charge 4- Appendix 1 pg285), (charge 5Appendix 1 pgl87,286), (charge 6: Appendix 1 pgl87, 286), and (charge 7Appendix 1 pg242, 287, 323, 337). KH did not deny having made the
statements, or claim to have forgotten, both of which would have been
grounds for impeachment, instead she unequivocally admitted under oath as
an adult to having made the claims and that they were fabricated. Each
question was asked and answered before the evidence was submitted to the
court.
The courts have insinuated that the alleged victim might have been
coerced to testify the way she did during the trial (Appendix 12). This claim is
not supported by the evidence or testimony, to the contrary, KH stated that
the prosecutor “encouraged” her to exaggerate her claims (Appendix 1 pg235
line 22 * pg236 line 2), the detective threatened to return her to her home if
she did not manipulate the phone call to his satisfaction (Appendix 1 pg216
line 18 * pg217 line 7), and that the foster parent encouraged more elaborate
stories (Appendix 1 pg312 line 16 * pg313 line 6, Appendix 9 pg. 2). The
question of coercion by her parents was asked at trial and answered to the
satisfaction of the prosecutor (Appendix 1 pgl78 line 11*22). The petitioner
believes that there were more personal reasons for her change in testimony,

22

involving her friends and her personal life, which might have been too
embarrassing and lengthy for her to elaborate on while on the stand. KH is
an adult now with a home, career, and marriage of her own but has continued
to try to help overturn this conviction with an affidavit (Appendix 9) and by
helping to hire and pay for post conviction representation. The affidavit that
was submitted with the habeas corpus reply was not considered in this claim
by the court and an evidentiary hearing was never ordered where such a
question might be asked or pursued further. It should also be noted as
relevant that KH approached her father and his defense counsel (Appendix 3
pg!072 line 2-25), they did not approach her.

23

REASONS FOR GRANTING THE PETITION

I.) The exposure of the jury to false, fabricated statements and evidence
violated the defendant’s right to due process guaranteed by the 14th
Amendment. The decision of the 6th circuit court of appeals regarding the
fairness of this trial conflicts with or is inconsistent with prior decisions of
this court.
Plain error has been ignored or excused in this case. One of the main
and complex issues here seems to some confusion over what is fabricated or
unreliable testimony. KH’s trial testimony was consistent with the DCS
report from an investigation that took place when KH was 15, one year before
the allegations were made (Appendix 8). According to Tennessee Supreme
Court rulings the forensic interview and statements to others were
consistent, and yet they are contradictory with her trial testimony and the
mentioned DCS report. KH’s trial testimony solved the imbalance when she
admitted to fabrication. The admission of evidence that is unreliable or
fabricated would clearly prejudice a jury and violate the constitutional
guarantee of due process. In most other jurisdictions recent fabrications are
inadmissible in a trial for what seems to be obvious reasons and result in the
cases being overturned or dismissed. In this case, the judge abused his
discretion by ruling against defense counsel when the admissibility of the

24

forensic interview was discussed (Appendix 1 pg394*427) and violated the
constitutional rights of the accused.
The Tennessee court of appeals has stated a concern regarding the
exhaustion of state remedies. In addressing that issue petitioner would point
out that FROE 103(e) states that “a court may take notice of a plain error
affecting a substantial right, even if the claim of error was not properly
preserved.” And that the Supreme Court has ruled that “The concepts of
cause

and prejudice ‘must yield to the imperative of correcting a

fundamentally unjust incarceration. We remain confident that, for the most .
part,

victims of a fundamental miscarriage of justice will meet the cause*

and'prejudice standard’ but we don’t pretend that this will always be true.
Accordingly, we think that in

an

extraordinary

case,

where

a

constitutional violation has probably resulted in the conviction of one who is
actually innocent, a federal habeas court may grant the writ even in the
absence of a showing of cause for the procedural default.” (.MURRAY V
CARRIER,

477 US 495 @495*496).

This petitioner realizes that the Supreme Court is hesitant to interfere
with a state where admissibility of evidence is concerned; however, in this
case the question of constitutionality of the application of those rules is in
question. The State already has rulings based on Supreme Court rulings that
were not applied or were applied in an unconstitutional manner requiring the
intervention of a higher court. For example, the TSC has stated in State V

25

Brown, 29 S.W. 3d, 427 (Tenn. 2000): “Evidence ...may yet be inadmissible if
it runs afoul of other well-established rules of evidence, the most prominent
being against hearsay. Generally speaking, the rule against hearsay is
considered to be a rule of reliability...This difference ensures that only
evidence deemed most relevant AND most reliable is appropriate for
consideration by the trier of fact” (quoting CHAMBERS, 410 US 284 at 431).
“Children and teenagers may be prone to exaggerating both the status of
their consensual sexual activity, and their sexual prowess.

Children may

succumb to peer-pressure to fabricate stories of sexual promiscuity to be
viewed as cool, or mature.”(443)
The previous courts; State, district, and 6th Cir, have erroneously
claimed that the evidence submitted in this case was reliable and have
continuously applied Tennessee Rule of evidence 803(26) without satisfying
the first condition:
1.

The statement must be otherwise admissible under Rule 613(b).

2.

The declarant must testify at the trial or hearing and be subject

to cross-examination about the statement.
3.

The statement must be an audio or video recorded statement, a

written statement signed by the witness, or a statement under oath.
4.

The judge must conduct a hearing outside the presence of the

jury to determine by a preponderance of the evidence that the prior
statement was made under circumstances indicating trustworthiness.

26

Tennessee Rule of evidence 613(b) states'
“Extrinsic evidence of a prior inconsistent statement by a witness is
not admissible unless and until the witness is afforded an opportunity
to explain or deny the same and the opposite party is afforded an
opportunity to interrogate the witness thereon, or the interest of
justice otherwise require.”
The TSC explained when and why extrinsic evidence of a prior
inconsistent statement is admissible as substantive evidence according to 613
(b):
“The purpose of rule 613(b) is to allow introduction of otherwise inadmissible
extrinsic evidence for impeachment. Extrinsic evidence of a prior inconsistent
statement remains inadmissible when a witness unequivocally admits to
having made the prior statement. The unequivocal admission of a prior
statement renders the extrinsic evidence both cumulative and consistent with
a statement made by the witness during trial. Extrinsic evidence of a prior
consistent statement is generally inadmissible and not subject to Rule 613(b).
Accordingly, the admissibility of the extrinsic evidence is contingent upon
whether the witness admits or denies having made the prior inconsistent
statement.” STATE V. MARTIN, 964 S.W.2d 564, 567 (TSC 1998).
Again in STATE V. ACKERMAN 397 S.W. 3d 617 637-640 “To be admissible
as substantive evidence via rule 803(26), a statement must first be admissible
as a prior inconsistent statement via rule 613 (b). That rule provides that

27

‘extrinsic evidence of a prior inconsistent statement by a witness is not
admissible unless and until the witness is afforded an opportunity to explain
or deny the same and the opposite party is afforded as opportunity to
interrogate the witness thereon, or the interests of justice otherwise require.’
Tenn. R. Evid. 613(b).’ Extrinsic evidence of a prior inconsistent statement is
inadmissible, however, unless the witness denies making the statement or
equivocates about making it. State V. Martin, 964 S.W.2d 564, 567. ‘Extrinsic
evidence of a prior inconsistent statement remains inadmissible when a
witness unequivocally admits to having made the prior statement.’ Id.
The prosecutor was very thorough in her questioning of KH concerning
each out of court statement that resulted in a charge before asking that the
statements and journals be admitted into evidence (Appendix l; charge 1pgl76-177, 283-284, charge 2: pgl76-177, 283-284, charge 3: pgl77, 287,
charge 4- pg285, charge 5: pgl87, 286, charge 6'- pgl87, 286, and charge 7pg242, 287, 323, 337). KH did not deny having made the statements, or claim
to have forgotten, both of which would have been grounds for impeachment,
instead she unequivocally admitted under oath as an adult to having made
the claims and that they were fabricated. Each question was asked and
answered before the evidence was submitted to the court.
In the Supreme Court ruling IDAHO V WRIGHT, 497 US 805, 821-822
guidelines regarding the admissibility of evidence were listed as follows1.) Spontaneity and consistent repetition

28

2.) Mental state of declarant.
3.) Use of terminology.
4.) Lack of motive to fabricate.
Guideline 1 applies as the DCS report (Appendix 8) was inconsistent with the
other out of court statements and interviews. Guideline 2 applies as KH was
angry, vindictive, and recalcitrant. Guideline 4 applies as KH admitted her
motive to fabricate and admitted to doing so. However, in the same opinion,
The Supreme Court backpedals and softens its stance leaving courts in a grey
area and leading to some jurisdictions adhering to these guidelines and
others ignoring them.
Some jurisdictions have argued back and forth regarding the way in
which forensic interviews are conducted, the 8th circuit is among those. In
that District the argument has been based upon UNITED STATES V.
ROUSE, 111 F3d 561. In that argument they use Daubert v. Merrell Dow
Pharmaceuticals, 509 U.S. 579, 113 S.Ct. 2786, 125 L.Ed.2d 469 (1993) to
bring in the expert testimony from UNITED STATES V. ROUSE, 111 F3d
561 where Dr. Undwerwager and a professional publication by Stephen j.
Ceci and Maggi Bruck (Suggestibility of a Child Witness- A Historical Review
and Synthesis (113 Psychological Bulletin 403-439 (1993)) spells out the
problems with interrogation techniques like those used in forensic interviews.
The court quoted the Ceci'Bruck article stating “Repeated questions
can produce a change of answers as the child may interpret the questions as

29

“I must not have given the correct response the first time” and the child’s
answers may well become less accurate over time (or even within a single
interview) in an inaccurate report.” (UNITED STATES V. ROUSE, 111 F3d
576-577) and “preconceived assumptions of the interviewer are the most
powerful determinant of what comes out of an interview” (id footnote 9).
Such repeated questions are notable throughout the forensic interview in this
case but most telling is the question of penetration that was repeated no less
than five times, each answered “no”, before the answer was finally “yes” at
the end of the interview then denied nine (9) times over the course of the
proceedings.
“Children will lie for personal gain, and material and psychological
rewards need not be of a large magnitude to be. effective.” Id. The bribe or
insinuation to K.H. would have been one of disbelief and return home to
parents that had, in her mind, every reason to dislike or punish her extreme
behavior. All she had to do to avoid that end was satisfy the interviewer and
the case worker in the adjacent room. K.H’s trial testimony that she had lied
in that interview simply reinforces the point of the case made in Rouse.
In the present case KH stated that the prosecutor “encouraged” her to
exaggerate her claims (Appendix 1 pg235 line 22 - pg236 line 2), the detective
threatened to return her to her home if she did not manipulate the phone call
to his satisfaction (Appendix 1 pg216 line 18 * pg217 line 7), and that the
foster parent encouraged more elaborate stories (Appendix 1 pg312 line 16 -

30

pg313 line 6, Appendix 9pg. 2), not to mention the case worker that asked
repeated, leading, and suggestive questions in the forensic interview itself.
The petitioner has provided some of the missing e-mails where KH’s
peers encouraged her to take drastic action, combined with the already
demonstrated susceptibility of KH to peer pressures the TSC has stated in
their opinion in STATE V. BROWN, 29 S.W. 3d, 427 (Tenn. 2000) “children
and teenagers may be prone to exaggerating both the status of their
consensual sexual activity, and their sexual prowess. Children may succumb
to peer-pressure to fabricate stories of sexual promiscuity to be viewed as
cool, or mature.” Is it so difficult for the courts to believe that a teenager
might make such a mistake and then regret it later as KH stated (Appendix 1
pg232 line 24 - pg 233 line 14, pg298 line 11- pg 300 line 11, pg 312 line 13 pg 313 line 6, pg348 line 3-9)?
So the extrinsic evidence was inadmissible and does not possess the
required indicia of reliability required for due process. This court has stated
“A new trial is required if ‘the false testimony could...in any reasonable
likelihood have affected the judgment of the jury...”’ (Giglio V. U.S. 405 us
150 at 153 (quoting Napue V. People of State of Ill. 360 us 264 at 271)). As
the jury was exposed to three out of four days of fabricated and inadmissible
testimony and evidence, the resultant bias that affected them should be
obvious and the remedy should be equally obvious being an order to vacate
and remand for a new trial.

31

The requirements for plain error are:
l) The error must be a deviation from legal rule
2) The error must be obvious
3) The error must affect substantial rights
4) The error must seriously affect the fairness or integrity of the
judicial proceedings.
With those guidelines;
l) The error was a deviation from the rules of evidence as they are
applied in Tennessee; Rule of evidence 803(26) and 613(b) as
described in Tennessee Supreme Court rulings in STATE V.
MARTIN, 964 S.W.2d 564, 567 and STATE V. ACKERMAN 397
S.W. 3d 617 637-640 And was contrary to federal holdings in
CHAMBERS, 410 US 284 at 431, IDAHO V WRIGHT, 497 US 805,
821*822, GIGLIO V. U.S. 405 U.S. 150 at 153, and NAPUE V.
People of State of Ill. 360 U.S. 264 at 271.
2) The evidence used was inadmissible, unreliable recent fabrication.
A DCS report from just the year before, a sworn statement and an
affidavit stating that the statements, journals, and reports to
people in authority were fabrications with motive, pressure to
exaggerate, and a description of method and means.
3) The error affected the right to a fair trial, to be tried with evidence
that has indicia of reliability per the requirements of the 14th

32

amendment, and the due process of confrontation found in the 6th
amendment. These are significant rights guaranteed by the
Constitution of the United States to all citizens thereof. Everything
I have read indicates that the courts would rather let a guilty man
go free than convict an innocent man.
4) That the jury was exposed to this fabricated evidence over three
days out of four days of trial would prejudice even the most elect of
citizens, that the fabricated evidence is the only evidence that
contains the required elements for the charges and with out it
there can be no charges, that the trial court abused its discretion
regarding of the rules of evidence (Appendix 1 pg394-427 and 503*
509), all contribute to error that affected every aspect of the
integrity of this trial.
The question remains, was the error harmful or would the outcome of
the trial have been different? Since KH not only recanted her previous
statements but openly and unequivocally admitted to having fabricated or
exaggerated them to the extent that she described her methods and motives!
all of her previous statements (especially the forensic interview) would have
been excluded from the trial. The only remaining evidence would have been
KH’s trial testimony and the two recordings of the petitioner neither of which
contain any of the required elements from the indictment nor any admission
to anything that violated the law! to the contrary, the petitioner says

33

“nothing I did was for sexual gratification” (required element per Tenn. Code.
Ann. 39-13-501(6)), “I never touched your clitoris” (penetration being the
required element per Tenn. Code. Ann. 39-13-503), all while unaware the
conversation was being recorded. Opinions to the contrary have taken
phrases out of context (in the recording, the accused can be heard saying “wha?”
under his breath and using a confused tone. This is not reflected in the transcript). Even
then, the recording alone cant be used to support the charges

as the

Tennessee

is

Supreme

Court

ruled

in

Helton

“An

admission

an

acknowledgement by the accused of certain facts which tend together with
other facts to establish guilt; while a confession, putting to one side the
problem of corroboration, an admission is not sufficient in itself to support a
conviction.” (Helton V. State, 547 SW2d 564, 567 (TSC)) The US Supreme
court holds to the same standard in Opper V. United States, 378 U.S. 84, 89.
So the error was clearly not harmless; the prosecutions entire case rested on
KH’s previous statements.
It has taken a considerable amount of time and effort by the petitioner
to understand these rules, how they apply, and how to phrase an argument
for the courts. The result is a plain error that has gone far too long without
being recognized and the remedy for plain error is; that the state should be
ordered to vacate the charges and the case be remanded for a new trial.

34

CONCLUSION
The Jury was prejudiced against the defendant after being exposed to
three days of inadmissible and unreliable recently fabricated evidence. The
admission of unreliable fabricated evidence was an error affecting the
fairness of the trial that can be attributed to both defense counsel and the
state court, was not harmless, and should result in the case being remanded
for a new trial
The state has stated that it is up to the jury to determine the weight
and reliability of evidence presented in court. To a certain degree, that is
true, however, it has also been long held that the evidence presented needs to
be reliable. The jury must weigh complete and reliable evidence; otherwise
there would be no need for evidentiary rules to prevent unreliable evidence.
The very existence of said rules sets the boundaries for the jury’s
considerable power. According to the rules by which trials are bound both
federally and in this state, the evidence was not reliable, and did not posses
the proper indices required for reliability and so the weight given it by the
jury is suspect for bias.
A ruling in this case would provide unified guidance regarding fairness
of trials and reliable evidence, and correct an injustice that has been done on.
an American citizen who’s guaranteed constitutional rights have been
violated.

35

A ruling in this case might also be beneficial in the future as this issue
is becoming more prevalent in political as well as personal lives. Charges
such as the ones in this case are so easily turned into convictions that they
have become a tool, or instrument used to easily remove people from positions
of authority, be they parents, spouses, teachers, or candidates for political
office. Often the complainant child, upon maturing, feels guilty for their
actions as a child and comes forward with the truth seeking to correct an
injustice. A clear path to justice in those cases is needed.
All jurisdictions would benefit from guidance regarding the way
forensic interviews should be conducted as well as the treatment of the child
by agents of the state in cases like this. In particular, the state of Tennessee
would benefit greatly from rules that clear up any ambiguity regarding
recent fabrication, and a rewrite of rule 613 (b) to reflect the states rulings
and the intent of that rule.
The court should issue a certificate of appealability because the
Petitioner has pursuant to U.S. Sup. Ct. rule 10, 28 U.S.C.A. shown that (a) a
United States court of appeals has so far departed from the accepted and
usual course of judicial proceedings, or sanctioned such a departure by a
lower court, as to call for an exercise of this courts supervisory power; (c) a
state court or a United States court of appeals has decided an important
federal question in a way that conflicts with relevant decisions of this court.

36

*

*

The petition for a writ of certiorari should be granted.
Respectfully submitted,

rrel Hochhalter
533622
T.C.I.X.
1499 R.W. Moore Memorial Highway
P. 0. Box 4050
Only, Tennessee 37140-4050

37

